                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A08100049                                                                      Page 1 of 1



                 Our investigation determined that the Subject 1 knowingly plagiarized in proposals
          submitted to NSF. NSF made a finding of research misconduct by the Subject; sent a letter of
          reprimand to the Subject; required the Subject to submit certifications to the Assistant Inspector
          General for Investigations (AlGI), NSF OIG for four years; required the Subject's employer to
          submit assurances to the AlGI of NSF OIG for four years; prohibited the Subject from serving as
          a reviewer of NSF proposals for four years; and required the Subject to provide certification to
          the AlGI that he has completed a course on the proper conduct of research.


                 This memo, the attached Report of Investigation, the letter from NSF with a finding of
          research misconduct, and the NSF Director's decision on the Subject's appeal, constitute the case
          closeout. Accordingly, this case is closed.




NSF OIG Fonn 2 (11 /02)
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230

                                                        '1{1.'2
                                                    5   Lui




       OFFICE OF THE
         DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re:      Notice of Research Misconduct Determination


Dear

        From 2005-2008, you served as a Principal Investigator ("PI") on six proposals submitted
for funding to the National Science Foundation ("NSF")." As documented in the attached
Investigative Report prepared by NSF's Office oflnspector General ("OIG"), these proposals
contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding ofresearch misconduct
requires that:

        (1) There be a significant departure from accepted practices of the relevant research
              community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained 335 unique lines of text copied from 35 source documents, as
well as 118 embedded references. By submitting proposals to NSF that copied the ideas or
words of another without adequate attribution, as described in the OIG Investigative Report, you
misrepresented someone else's work as your own. Your conduct unquestionably constitutes
                                                                                              Page 2
plagiarism. I therefore conclude that your actions meet the definition of "research misconduct"
set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CPR§ 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF ' s regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CPR § 689 .3(a) . Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CPR§ 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CPR§ 689.3(a)(2). Group Ill actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CPR§ 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
knowingly. I have also considered the fact that your misconduct was part of a pattern of
plagiarism, and had no impact on the research record. In addition, I have considered other
relevant circumstances. 45 CPR§ 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until December 15,2015, you must provide certifications to the OIG that any
           proposal or report you submit to NSF as a PI or co-PI does not contain plagiarized,
           falsified, or fabricated material;

       (2) Until December 15,2015, you must obtain, and provide to the OIG, assurances from a
           responsible official of your employer that any proposal or report you submit to NSF as
           a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

       (3) By December 15, 2012, you must attend a training course in the responsible conduct
           of research, and provide a certificate of attendance to the OIG that you have
           completed such a course; and

       (4) Until December 1, 2015, you are prohibited from serving as a merit reviewer for NSF.
                                                                                            Page 3
       The certifications, assurances, and certificate of attendance should be submitted in writing
to OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.



Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1 O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a       of the applicable regulations. If you have
any questions about the foregoing, please                   Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                    Wanda Ward
                                                    Senior Advisor to the Director




Enclosures
   Investigative Report
- 45 C.P.R. Part 689
                            NATIONAL SCIENCE FOUNDATION
                                 4201 WILSON BOULEVARD
                                ARLINGTON, VIRGINIA 22230

                                   APR 1 8 2012


 OFFICE OF THE
   DIRECTOR




CERTIFIED MAIL- RETURN RECEIPT REQUESTED




       Re:       Decision on Appeal of Research Misconduct Determination



On January 5, 2012, Dr. Wanda Ward, Senior Advisor to the Director, issued a Notice of
Research Misconduct Determination against you. This Notice was issued based on
NSF's finding that you submitted six proposals to NSF that contained plagiarized
material. In this Notice, NSF: (1) required you to submit certifications and assurances
with any proposals or reports filed with NSF until December 15, 2015; (2) prohibited you
from serving as an NSF reviewer until December 15, 2015; and (3) ordered you to
complete a training course on the responsible conduct of research by December 15, 2012.
On February 8, 2012, you appealed NSF's finding of'research misconduct. This letter ·
constitutes NSF's decision on your appeal.

Your appeal is denied. As outlined in the NSF's Office of Inspector General
investigative report, you admitted to the University investigation panel that you often
used a "cut and paste" method to assemble information from your proposals. According
to the panel report, on several occasions, you replaced one or two nouns from the source
material to bring the text into agreement with the subject of the proposal. In addition,
you changed the verb tense in methods sections from what was done in a prior research
effort to what would be done in your proposed research. These specific actions taken by
you to integrate copied text into your proposal are indicative of a knowing intention to
adopt another's text as your own. Thus, NSF has affirmed the finding that your actions
were committed knowingly, and constitute research misconduct.
Moreover, NSF finds that the actions taken against you by NSF as a result of your
research misconduct are reasonable, and commensurate with the misconduct that you
committed. Thus, with this decision, NSF is upholding them in their entirety.

If you have any questions about the foregoing, please call Lawrence Rudolph, General
Counsel, at (703) 292-8060.



                                                   Sincerely,




                                                   Subra Suresh
                                                   Director
CONFIDENTL'\L                                                                    CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A08100049
                             5 August 2011
                 This Confidential Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure of which may result in
personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
disclosed within NSF only to individuals who must have knowledge of its contents to
facilitate NSF ' s assessment and resolution of this matter. This report may be disclosed
outside NSF only under the Freedom oflnformation and Privacy Acts, 5 U.S .C. §§ 552 &
552a. Please take appropriate precautions handling this confidential report of investigation.




                                                                                                 1
C ONFIDENTL'\L                                                                         C ONFIDENTL'\L




                                          Executive Summary

OIG's inquiry established that:

      •    Ten of the Subject's unfunded NSF proposals contained text copied from multiple source
           documents.

University's inquiry and investigation concluded that:

   •      The Subject copied text into 6 NSF proposals;
   •      The Subject's actions were reckless;
   •      The Subject's actions were a departure from the standards of the research community;
          and
   •      The Subject's actions constitute academic misconduct.

OIG concludes that:

   •      Act: The Subject plagiarized approximately 355 unique lines of text into 6 proposals
          submitted to NSF over a period of 3 years.
   •      Intent: The Subject acted knowingly.
   •      Standard of Proof: A preponderance of the evidence supports the conclusion that the
          Subject's acts were a significant departure from accepted practices, and therefore
          constitute research misconduct.
   •      Pattern: The Subject displayed a distinct pattern of plagiarism over 6 proposals.

OIG recommends that NSF:

  •       Make a finding of research misconduct against the Subject;
  •       Send a letter of reprimand to the Subject;
  •       Require that the Subject submit certifications to AlGI, NSF OIG for four years that any
          submissions to NSF do not contain falsified, fabricated, or plagiarized material;
  •       Require that the Subject provide assurances from his employer to AlGI, NSF OIG for
          four years that any submissions to NSF do not contain falsified, fabricated, or plagiarized
          material;
  •       Prohibit the Subject from serving as a merit reviewer of NSF proposals for four years;
          and
  •       Require the Subject to provide certification to NSF OIG of attendance at a training course
          in responsible conduct of research within 1 year of the finding of research misconduct.




                                                                                                   2
    CON FIDENTIAL                                                                         CONFIDENTIAL



                                                         OIG Inquiry
                                                                        2
             The Subject and others 1 submitted 10 proposals to NSF over a 3-year period. Our
    inquiry analysis showed that these proposals contained in total approximately 600 lines of copied
    text, including numerous embedded citations, apparently copied from 51 different source
    documents. 3 The Subject was PI or co-PI on alllO proposals. Subject 2 was co-PI on 5
    proposals, and Subject 3 was the PI on 4 proposals. We initiated our inquiry by writing to the
    Subject, Subject 2, and Subject 3, to invite their explanation. 4            .


             The Subject stated 5 that he was not responsible for ant copied text in proposals on which
    Subject 3 was the PI because he did not write those sections. For the 6 proposals on which he is
    PC    the Subject stated that he used some of the materials from some ofthe source documents in
    these proposals. 8 However, he maintained that "I did not intent [sic] to copy since I have made
    all the efforts to give credit to the authors(s) and to cite the source documents both in the text and
    in the list of references - except in few cases where the source documents(s) is listed only in the
    list of references and in very few cases, the source document is not appearing in the text and/or
    in the list of references by error. " 9 In explaining why copied text was not properly attributed, the
    Subject responded:

            Most of the areas underlined or highlighted by NSF are located in the background
            section of the proposals. Since the background section intends to introduce works
            of the other scientists, my aim was not to copy the work of others but on the
            contrary to introduce these works as the main sources on the field. By doing that I
            was confident that I have cited the sources properly, [sic] Following your letter I




                            Each proposal was declined for funding.
     Sources include both web pages and published papers.
4
     Letters of inquiry to the Subject, as well as to Subjects 2 and 3 are at Tab A.
5
     Subject's response is at Tab B.
6
     Subject' s response, page 1 (Tab B)
7
     Proposals 2, 4, 6, 7, 8, and 9.
8
     Subject's response, page 1 (Tab B).
9
     Subject' s response, page 1 (Tab B).

                                                                                                        3
     CONFIDENTL'\L                                                                                  CONFIDENTL'\L



           have noticed that my citation work was not always consistent, and from my
           perspective, this situation is an issue of citation and formatting. 10

        Subject 2 provided a detailed and annotated response 11 documenting material he had
 provided for each of the five proposals on which he was listed as coP I; none of his contributions
 contained unattributed copied text. Based on our inquiry, we also learned that Subject 3 was
 deceased. We therefore took no further action regarding Subject 2 and Subject 3.

        The Subject's resronse did not dispel the allegation, and we referred the investigation to
 the Subject's University. 2

                                                  University Inquiry

          Pursuant to its policy, the University first conducted an inquiry. The inquiry committee
 report 13 stated:

          ln order to properly address the large number of charges, the committee members
          reviewed each of the instances of alleged plagiarism indicated in the NSF letter
          and categorized each instance into one of five [sic] categories, in order of
          increasing seriousness:

          1. Short statements of facts, or well-known ideas; whose appearance in both the
          proposal and the reference paper could not be unequivocally attributed to
          plagiarism.

          2. Sections of text appearing in background sections of the proposals· with
          attribution to the cited reference, but without indication that the text used was a
          direct quote.

          3. Sections of text appearing as background material for the proposals without
          attribution to the source reference.

          4. Sections of text appearing in the research plan or experimental procedure
          sections of the proposals that are not properly attributed to source documents and
          thus could confuse a reviewer about the experience and capabilities of the
          .     •      14
          mvest1gator.

       The inquiry committee report stated that "The majority of the instances indicated in the
NSF report fell into Categories 2 and 3. For Category 2, an appropriate reference is cited, yet the



10
   Subject's response, page 2 (Tab B),
11
   Tab B.
12
   Referral of investigation Jetter is at Tab C.
13
   The University inquiry report is at Tab D.
14
   Inquiry committee report, page 2 (Tab D). These distinctions and the differing levels of seriousness assigned to
them are not specifically supported by University policy.

                                                                                                                      4
 CONFIDENTL'\L                                                                                           CONFIDENTIAL



 text is mostly word-for-word . Category 3 items are of more concern since they do not include an
 appropriate reference to the source document containing the mostly word-for-word text." 15

          The inquiry committee report summarized:

          In fmther discussion of why there were a large number of instances of un-
          attributed direct quotations from source documents in the proposals, several
          reasons were identified, including the following: (1) Inclusion of graduate student
          work in the proposal without oversight review, (2) A practice of using copy-and-
          paste to compose background sections of the proposal with the intention of
          rewriting those copied sections later, but the rewrite was inadve1tently not
          performed due to time constraints, (3) Using descriptions of existing research
          protocols without clearly identifying which publications were the source of those
          procedures. This latter case was the typical explanation for those Category 4
          instances that we questioned him about. He pointed out that references to sources
          for those protocols are included, but we observe that the inclusion of such
          references is not so close to the use of the bono wed text, and it is not easy for a
          reader to distinguish what is ~a1t of some existing protocol and what are new
          proposed ideas/experiments. 6

        The inquiry committee found there to be sufficient credible evidence of academic
misconduct to warrant further investigation of copying in six of the Subject's NSF proposals, 17
and the University initiated an investigation. 18

                                               University Investigation

        We received a copy of the University investigation committee (IC) report. 19 The IC
reviewed the proposals and alleged sources previously examined by the inquiry committee, and
interviewed the Subject. 20 As part of its investigation, the committee requested our assistance in
assessing the Subject' s additional proposals using plagiarism-checking software. We assessed
those documents using the software, and provided the results directly to the IC.2 1

        In a statement to the IC, the Subject stated he did "not accept any intention of plagiarism,
because when I was writing this proposal, I made all the efforts to give credits to authors." 22 He
asserted that instances of more serious plagiarism identified in the inquiry report should be
reclassified as less-serious instances.23 The Subject stated to the IC that graduate students

15
   Inquiry committee report, page 3 (Tab D).
16
   fnquiry committee report, page 4 (Tab D).
17
   The six proposals are those identified in our referral letter, viz Proposals 2, 4, 6, 7, 8, and 9. The other four
proposals had Subject 3 (deceased) as PI. The University believed it would be difficult to establish authorship
responsibility for these 4 proposals.
18
   Tab E.
19
   Tab F.
20
   The transcript of the Subject's interview by the JC is at Tab G.
21
   The documents provided and the program results are available for inspection.
22
   Subject interview transcript, page 3 (Tab G).
23
   The IC did not reclassify any of the instances of plagiarism classified by the inquiry committee.

                                                                                                                       5
     CONFIDEN TL'\L                                                                     CONFIDEN T L'\ L



     assisted in the preparation of some of his proposals, and provided some of the material alleged to
                24
     be copied. The IC did not contact any of the Subject's graduate students to confirm their
     involvement in proposal preparation.

             The IC report stated:

            It is the unanimous opinion of the Investigation Panel that plagiarism did take
            place in the series of submitted research proposals to NSF detailed in Appendix 1.
            Moreover, the Panel is in agreement with the Inquiry Team's conclusions and
            findings (Appendix III). The evidence that supports the fmdings of fact is set forth
            in the annotated proposals analyzed by NSF, [Subject's] testimony to the Panel
            and his description of the cut-and-paste process he often followed in his proposal
            writing, and additional proposals and papers submitted by the Panel and analyzed
            by NSF. In his testimony (Appendix II), [Subject) argued to reclassify (and
            reduce) the degree of seriousness of some of the instances of matching text
            identified by NSF, but he did not dispute his use of text without explicit
            quotations and/or citation.25

         The IC concluded by a preponderance of the evidence that the Subject committed
 plagiarism, and that the Subject's "practice of copying text directly, or nearly directly, without
 quotation and, on occasion, without proper attribution, is a departure from accepted practice in
 this research comrnunity."26

            In its discussion of the Subject's intent, the IC report stated:

           In the Panel's opinion it stretches credibility that [the Subject) would not realize
           that his habit of electronically lifting large sections of text fi:om other sources
           while composing a proposal is a dangerous practice that could easily lead to
           instances of plagiarism, intended or otherwise. The Panel further notes that in
           several instances verbatim text from source material was interrupted to replace
           one or two nouns in order to bring the text into agreement with the subject of the
           proposal, or to change the verb tense in methods sections from what was done in a
           prior research effort to what will be done in [the Subject's] proposed research.
           After examining the record as a whole, the Panel finds that [the Subject's) actions
           display a lack of care in his work and a dismaying disregard for consequences.27

The IC, however, drew no specific conclusion with respect to the Subject's intent. In a letter
conveying the report to the Chancellor for adjudication, the Vice Chancellor concluded that the
Subject's intent was reckless.28

           The IC considered the issue of a pattern of behavior by the Subject, and stated:

24
     None of the Subject's proposals list graduate students as authors .
25
     IC report, page 2 (Tab F).
26
     IC report, page 2 (Tab F).
27
     IC report, page 3 (Tab F).
28
     Vice-Chancellor's letter to the Chancellor, page 2 (Tab H) .

                                                                                                      6
 CONFIDENTIAL                                                                                        C ONFIDENTL'\L




          The original NSF proposals are sufficient in volume and number to establish a
          pattern of plagiarism. As noted above, analysis of additional material revealed
          instances of plagiarism, although less so than the NSF proposals. In his interview,
          [the Subject] admitted that he commonly used tllis cut-and-paste writing style
                                                                                         29
          when he was under time pressure, which was common in his proposal writing.

 The IC determined that the Subject's actions had no significant impact on the research record,
 research subjects, other researchers, institutions or the public welfare since none of the proposals
 were funded. The IC expressed concern about the impact on the Subject's students given the
                                                                              30
 Subject's example of lack of attention to details of proposal composition.

         The IC recommended that the Subject receive training on the responsible conduct of
research, that for a limited period of time his proposals and publications be supervised by a
senior colleague to prevent a recurrence of plagiarism, and that the Subject's students also
receive specific training on plagiarism. The IC also recommended that the University embark
upon responsible conduct of research training for all faculty and graduate students, and adopt a
program through which a sample of proposals from pre-tenure faculty are proactively analyzed
.c
1or p 1ag1ar1sm.
         . . 31

        Pursuant to University policy, the Subject was asked to comment on the IC report. The
Subject provided no comments. The Vice Chancellor recommended that the Subject be
prohibited from seeking funding through grants or contracts submitted from the University for a
period of 6 months, and that the Subject complete a course on the responsible conduct of
research. The Chancellor made a finding of academic misconduct by the Subject, and agreed
                                  32
with the recommended sanctions.

                                                OIG's Assessment

        We invited the Subject to comment on the University IC report, but received no
comments. We concluded that the IC report was factually accurate and complete, and that the
University followed reasonable procedures. We accept the report in its determination of the
basic facts of this matter. However, as discussed below, we disagree with the University's
assessment of intent, and we explicitly describe the Subject's departure from accepted practices
as significant. We agree with the University that it would be difficult to prove authorship
                                        33
responsibility for the 4 other proposals where Subject 3 was the PI. Therefore, we also have
removed them from further consideration under this investigation. One of the coP Is is deceased.
Although a coPI responded to our inquiry letter and delineated composition responsibility for
some parts ofNSF proposals, other coPis were not contacted by the University committee.


29
    IC report, page 4 (Tab F).
30
   IC report, page 4 (Tab F).
31
    IC report, page 4 (Tab F).
32
   The prohibition on the submission of grants or contracts through the University expires February 23 , 20 ll . The
training in the responsible conduct of research has been specified as the course offered online through the
Collaborative Institutional Training Initiative (www.citiprogram.org).
33
    Proposals l ,3,5,and 10

                                                                                                                       7
     CONFIDENT L'\ L                                                                           CONFIDENTL'\L




        A finding of research misconduct by NSF requires that 1) there be a significant departure
 from accepted practices of the relevant research community, that 2) the research misconduct be
 committed intentionally, or knowingly, or recklessly, and that 3) the allegation be proved by a
 preponderance of the evidence.34

                                                   The Act

        The Subject copied approximately 355 lines of text into six unfunded NSF proposals
 without proper attribution, as shown in the Table.

 Proposae:'l                Copied lines               Embedded references              Number of sources
 2                          60 unique                  35                               5
 4                          85 unique                  1                                5
 6                          25 unique, 14 repeat       18                               6
 7                          145 unique                 41                               12
 8                          37 unique, 8 repeat        22                               4
 9                          3 unique, 12 repeat        1                                3
 TOTAL 6 proposals          355 unique lines           118                              35Jb



        The IC concluded that the Subject's actions were a deviation from the standards of his
community. The Subject asserted that he provided appropriate credit to the authors of the text
that he reused, but the facts clearly show otherwise since: the copied text is not differentiated
from other text in the proposals; the Subject copied 118 embedded references with the text he
copied; and any citations to copied text ofien did not exist even in the vicinity of the copied text.
The University made a finding of academic misconduct; University policy states that "Any
practice or conduct by a member of the University community that seriously deviates from those
ethical standards for proposing, conducting and publishing research that are commonly accepted
within the professional community constitutes academic misconduct in violation of University
policy." 37

        The Subject habitually composed his proposals by cut-and-pasting large swaths of text.
Contrary to his assertion, in fact he made no effort to provide credit to authors, as he provided no
quotation, no citation, and no reference. The committee described this as a "dismaying disregard
for the consequences." 38 Based on these facts, we conclude that the Subject' s actions were
indeed a significant deviation from accepted practices.




34
   45 C.F.R. §689.2(c).
35
    The proposal numbers are those listed within the footnote earlier in this report.
36
   The source documents include 18 papers, 15 websites, and 3 reports .
37 • • • • • • • • • • • • • • • • • • • • • • • • page 3 (Tab H).
38
   IC report, page 3 (Tab F).

                                                                                                         8
     C ONFIDENTIAL                                                                    C ONFIDENTIAL



                                                Intent

          The University Vice Chancellor concluded that the Subject's intent was reckless,
  sufficient for a finding of research misconduct. However, we conclude that the Subject's intent
 was knowing. The Subject described his method of proposal composition for the University IC
 as cut-and-paste copying of text. We were unconvinced by the Subject's claims that his planned
 editing did not occur because of time constraints, given the extent of copying in NSF proposals
 that extends over a period of years. It is implausible that the Subject's practice of cut-and-paste
 copying into his proposals, and changes of verb tense within that text, can be reconciled with
 anything but a calculated willingness to present the words of others as the Subject's own. The
 Subject's after-the-fact assertions that the copied text is of limited value as background material
 or experimental protocol are contradicted by his inclusion of this text in his proposals to support
 the competitiveness of his submission. We conclude that the Subject' s intent was distinctly
 knowing.

                                         Standard o(Proo(

        Based on our review and review of the University's IC report, we conclude that the
 preponderance of the evidence indicates that the Subject copied text into his proposal without
 appropriately distinguishing that text from his own work. Further, we conclude that the
 Subject's actions are a significant departure from accepted practices. 39

        Because the preponderance of the evidence shows that the Subject's plagiarism was a
significant departure from accepted practices, we conclude that the Subject' s plagiarism
therefore constitutes research misconduct.

                                 OIG Recommended Disposition

        When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) how serious the misconduct was ; (2) the degree to which the misconduct was
knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern;
(4) whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) other relevant circumstances. 40

                                            Seriousness

        The Subject copied approximately 355 lines of text into six NSF proposals. In so doing,
the Subject presented that text to NSF proposal reviewers as his own. The Uni versity IC found
that the Subject' s plagiarism is a departure from accepted practices, but we believe that under all
the circumstances, including our analysis of the Subject's intent, the plagiarism is a significant




40
     45 C.F.R. § 689. 3(b).

                                                                                                   9
     CONFIDENTIAL                                                                      CONFIDENTL'\L



     departure from accepted practices. The Subject's plagiarism in NSF proposals extended over a
     period of years, and appears to represent his usual and customary practice for preparing NSF
     proposals. Serial plagiarism of this extent is a serious breach of research ethics. We are
     concerned that the Subject does not recognize this breach, as he continued to assert through the
     investigation that he provided due credit to the authors of his sources.

                                        Degree o[Knowing Intent

          The Subject claimed to the IC that he was unaware that his cut-and-paste copying could
 be considered as plagiarism. The IC found this argument unconvincing, citing the Subject's
 practices as evidencing a "lack of care" and a "dismaying regard for its consequences."41 A
 telling example of knowing intent is evident in Proposal 6. One embedded citation in the copied
 text is not linked to the corresponding reference in the References Cited section of the proposal,
 although all of the other embedded citations are. The missing reference in the source document
 is a publication described as "in press." The Subject would not have access to this publication
 and therefore could not cite it as a reference in his proposal. This calculated act reveals the
 subject's intent was indisputably knowing.

                                                 Pattern

        The IC concluded that the Subject's actions were part of a pattern in NSF proposals. The
 Subject's recurrent plagiarism in NSF proposals over a period of years is clear and compelling
 evidence for a pattern of behavior by the Subject.

                                         Impact on the Research Record

        Each of the Subject's NSF proposals was declined; the impact of the Subject' s plagiarism
on the research record is therefore limited to activities related to NSF merit review of those
proposals.
                   Subject's comments on the draft Report of Investigation

        We provided a draft copy ofthis report of investigation to the Subject for comments. In
his response (Tab J), the Subject provided comments on : 1) University Investigation; 2) The
Failure to Attribute; 3) Intent; 4) Seriousness; 5) Degree of Knowing Intent; and 6)
Recommendation.

University Investigation:

        The Subject correctly noted that he provided to the inquiry committee the name of the
graduate student who provided him material that he later incorporated into his NSF proposal.
We amended one sentence in the draft report of investigation to accurately describe that the
Subject named the student. However, the Subject's assertion in his response that the inquiry
committee report stated that he "was not personally responsible for many of the items" is
incorrect. The inquiry report stated that "the [material provided by the graduate student to the

41
      IC report, page 3 (Tab F).

                                                                                                   10
 CONFIDENTIAL                                                                                       CON FIDENTIAL



 Subject, and by the Subject to the committee] was intended as evidence that [the Subject] was
 not personally responsible for many of the items in evidence item 1B [Proposal 4]. ... " This
 statement merely describes the Subject's intent in offering the evidence, without saying whether
 the evidence had the intended effect on the committee. Ultimately, the inquiry committee
 implicitly rejected the Subject's argument by finding credible evidence of plagiarism in the
 proposal. Further, the IC did not contact any graduate students to confirm their involvement in
 proposal preparations. Similarly the IC concluded that the Subject was personally responsible for
 the copied material. The Subject made no specific claims to either the inquiry committee or the
 IC about student participation in the preparation of the five other proposals that contain copied
 text.

 Intent:

        The Subject claimed that the plagiarism was inadvertent and not intentional. The
Subject added "However, I do not believe that my conduct, although falling below standards,
was reckless or intentional." The Subject correctly notes that the IC did not reach a
conclusion on the Subject's intent. However, as noted in Tab H of the draft Report of
Investigation, the Vice Chancellor for Research specifically determined the Subject's intent
to be reckless. We concluded that the Subject's actions were knowing.

Recommendation:

        The Subject noted that he has abided by the University adjudication of the case, which
included a six-month ban on submission of proposals. This University-imposed ban ended
February 23, 2011. Further, the Subject noted that he has not submitted external proposals since
February 2, 2010. 42 He notes that he has already completed a web-based ethics training
course.43

       We conclude that our recommendations, including certifications and assurances, and
completion of an instructor-led course in the responsible conduct of research, remain consistent
with previously adjudicated cases and sufficient to protect NSF's interests.

                                               Recommendations

           We recommend that NSF:

     •     Make a finding of research misconduct against the Subject;
     •     Send a letter of reprimand to the Subject; 44
     •     Require that the Subject certify for four years that any submissions to NSF do not contain
           falsified, fabricated, or plagiarized material; 45


42
   The Subject's most recent proposal to NSF                 as submitted September 17, 2009.
43
   The certificate of completion is dated February 20, 2011. This on-line course was specifically required by the
University.
44
   A letter of reprimand is a Group I action, 45 C.F.R. § 689.3(a)(l)(i).
45
   A certification from the subject is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(l ).

                                                                                                                    11
     CONFIDENTIAL                                                                                     CONFIDENTIAL



        •   Require that the Subject obtain assurances from a responsible official of his employer for
            four years that any submissions to NSF do not contain falsified, fabricated, or plagiarized
            material; 46
        •   Prohibit the Subject from serving as a merit reviewer ofNSF proposals for four years; 47
            and
        •   Require the Subject to provide certification to NSF OIG of attendance at a training course
            in responsible conduct of research within one year of the fmding of research
            misconduct. 48

           Subject's certifications, assurances, and certificate of attendance should be sent to the
        Assistant Inspector General for Investigations.




46
      Assurance from the subject's employer is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(l).
47
      Prohibition from service as a reviewer for NSF is a Group III action, 45 C.F.R. § 689.3(a)(3)(ii).
48
      A course requirement is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(l).

                                                                                                               12
